XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

October 3, 2019
VIA ELECTRONIC FILING SYSTEM AND FEDERAL EXPRESS
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Americans for Prosperity Foundation v. Becerra, No. 19-251, and Thomas More
Law Center v. Becerra, No. 19-255
Request for Extension of Time

Dear Mr. Harris:
The petitions for writs of certiorari in these cases were filed on August 26, 2019.
Responses to the petitions were originally due on September 25, 2019. On September 9,
respondent filed a request for a 30-day extension of time in which to file responses to the
petitions. On September 11, 2019, the Court granted respondent’s request, extending the due
date for the responses to October 25, 2019.
Pursuant to Rule 30.4, respondent respectfully requests that the time for filing responses
to both petitions be extended by an additional thirty days, up to and including November 25,
2019. Among other reasons for the requested extension, after respondent filed the initial
extension request, the California Supreme Court scheduled for oral argument on October 2, 2019
a case in which I am counsel of record for the Attorney General of California, Mathews v.
Becerra, No. S240156. Petitioner Thomas More Law Center consents to the requested
extension. Petitioner Americans for Prosperity Foundation takes no position on this request.
Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General of California

October 3, 2019
Page 2
cc:

Derek L. Shaffer
Counsel for Americans for Prosperity Foundation
John J. Bursch
Counsel for Thomas More Law Center

